No. _________
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL LANCE DAVIS,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit Court
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

MELISSA WINBERG*
MILES POPE
FEDERAL DEFENDER SERVICES OF IDAHO, INC.
702 West Idaho Street, Suite 1000
Boise, Idaho 83702
Miles_Pope@fd.org
208-331-5500
*Counsel

of Record

Petitioner Michael Lance Davis, pursuant to Supreme Court Rule
39 and 18 U.S.C. ยง 3006(d)(7), asks for leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Ninth
Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioner was represented by appointed counsel under the Criminal
Justice Act on appeal to the United States Court of Appeals for the Ninth
Circuit, and therefore, no affidavit is required.
Dated this 30th day of June, 2020.
Respectfully submitted,
/s/ Miles Pope

